HHS/OIG, Audit - "Follow-up Review of the Medicaid Drug Rebate Program in
Kentucky," (A-05-08-00015)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-up Review of the Medicaid
Drug Rebate Program in Kentucky," (A-05-08-00015)
March 31, 2008
Complete
Text of Report is available in PDF format (1.31 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
In a follow-up audit of
Kentuckys Medicaid drug rebate program, we found that the State had
implemented, as of June 30, 2006, the recommendations from our prior audit.
Under the drug rebate program, manufacturers receive Federal Medicaid funding
for covered outpatient drugs by entering into a rebate agreement with CMS and
paying quarterly rebates to the States.  The State had implemented our
recommendations related to verifying rebate
amounts reported on the Form CMS-64.9R, reconciling accounts receivable amounts
to subsidiary records, and collecting older outstanding drug rebates.
Additionally, the State had established controls over collecting rebates on
single-source drugs administered by physicians.  Therefore, this report offered
no recommendations.